No.

In The

SUPREME COURT OF THE UNITED STATES

Edina Harsay
Petitioner
v.
University of Kansas
Respondent

PROOF OF SERVICE
I, Edina Harsay, do swear or declare that on this date, August 2, 2019, as
required by Supreme Court Rule 29 I have served three copies of the enclosed,
corrected PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
as listed below, by FedEx express mail or by depositing in the United States mail,
properly addressed and with first-class postage prepaid.
The petition was timely mailed on May 29, 2019 and served on the listed party.
It was not filed but returned for correction on June 3, 2019, with a 60-day window
allowed for filing a corrected petition, pursuant to Supreme Court Rule 14.5. The
petition was initially prepared according to Supreme Court Rule 33.2 and submitted
with a motion for leave to proceed in forma pauperis, but it is now submitted
according to Supreme Court Rule 33.1.
The enclosed corrected petition was also sent by electronic mail to the listed
party, addition to the mailing of the hard copies:
Michael C. Leitch, Attorney for Respondent, University of Kansas
245 Strong Hall, 1450 Jayhawk Blvd., Lawrence, Kansas 66045
mleitch@ku.edu, (785) 864-3276
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August2, 2019.
0
Edina Harsay
Petitioner, pro se

